                               CLOSEOUT FOR CASE M99060035
 On 30 June 1999, the complainant1 inform~dour office of allegations of misconduct in
 science. The complainant alleged that the subject2 and the subject's institution's
(institution 1) administration retaliated against him after he reported possible misconduct
in science against another scientist at institution 1. The complainant also discussed
numerous other allegations against individuals at institution 1 and institution 2.3 The
complainant informed us that he would provide "compelling evidence" in support of the
alleged retaliation by the subject against him. Subsequently, the complainant informed us
that he had filed a qui tam False Claims Act complaint, and we could get the information
discussing d l his allegations from the Department of Justice (DOJ).~ DOJ provided us
with copies of the information filed with the court by the complainant, which described
more than 50 allegations against more than 20 individuals at institutions l5and 2.6

 The allegations against individuals at institution 2 included false statements, fabrication
 and falsification of data, plagiarism, duplicate funding, misuse of Iimds, and-retaliation
against a good-faith whistleblower. We determined that NSF has no jurisdiction over any
of these matters at institution 2 because none of the alleged activities involved NSF
funds. The National Institutes of Health (NIH) had funded several of the individuals
listed by the complainant as subjects, and the office that handles allegations of
misconduct involving NIH awards reviewed the allegations and determined not to pursue
them.




-   '   him for the qui tam case.
                                    --   -   - provided us with the information the complainanthad sent
                            CLOSEOUT FOR CASE M99060035
 We determined that NSF did have jurisdiction over the allegation that the subject at
 institution 1 (as well as institution 1's administration) retaliated against the complainant
 because the complainant had been supported under the subject's NSF award.7 However,
 nowhere in the complainant's documents can we find evidence that anyone retaliated
 against the complainant. There is no substance to this allegation.8

 In addition, the complainant alleged that the subject made false statements in his NSF
proposal when he indicated that he intended to develop a particular piece of equipment.
The complainant claims the equipment-was not developed and, therefore, the subject
misused federal funds. The complainant also alleged that funds from the award were
used to support,"junkies." However, the purpose of the subject's award was to train
graduate students, and the success of the award was to be based on performance measures
listed in the proposal that focused on the number of graduate students trained under the
NSF program, not on whether the subject was successful in producing a piece of
equipment. Furthermore, the complainant provided no evidence of the subject's alleged
misuse of NSF funds for "junkies." There is no reason for us to suspect that this has
occurred. We determined that there was no substance to. the allegations that the subject
made false statements or misused NSF funds.

Following our evaluation of these allegations, we were informed that DOJ declined to
join the qui tam case. We talked to the complainant and urged him to provide any
additional information he might have in support of the allegations. After 3 months, we
wrote to the complainant informing him that if we did not receive the information before
a designated date, we would close this case. He did not respond.

This inquiry is closed and no further action will be taken.

cc: Integrity, IG




that the ~mplainant7s allegations against thi subject were the focus of his concerns, while the allegations
against fellow graduate students and administrators stemmed from his concerns about the subject's
alleged retaliation.
                                             Page 2 of 2                                        M 99-35
